                                          GER CORPORATIOIll
          NA TIO NA L RAILROAD PASSEN
                                                NE RA L
                 OF FIC E OF THE INSPECTOR GE
                      OFFICE OF INVESTIGATIONS
                                            .
                                         . PORT
                         INV. ESTIGATIVE RE


                              ent
TITLE: False T& A & MIsmanagem

CASE NUMBER: 00-001

DATE OF REPORT: May 13, 200

REPORT PREPARED BY: SSA
                           8



Report of Interview: _ _ _ _
                                  ----Ii)).·
                               _ __ _
Report of Documents:
                               _ _ _ __.X - Closing Report
Other Activity (Describe): _ _

                                                     ponse to Ol's administrative
                    offered management's written res
CMO
                       200 8.  According to          the two areas of concern
referral on   Ma y  9,                                              follows:
                                 8, referral have been corrected as
highlighted In ai's March 25, 200
                                n abolished.
   o The SSYD Shop Desl< has bee
                                                                             of a card
                                        tn;e nth as reestablished the use
    o The SSYD Mechanical De par                                        .
                                             r clerical employees' time
       key access system to better monilo
                                                                          mings noted
    ce ma  nag em  ent has taken posilive actlun to remedy the shortco
Sin                                                                  report.
                                  nd this case be closed with this
in ai's referral, agents recomme




                                 's Signature:    ---~'7------
                                                      ~
Deputy Inspector General/Counsel
